                            OFFICE OF
                     THE INSPECTOR GENERAL


                         U.S. NUCLEAR
                    REGULATORY COMMISSION



                        Review of NRC’s Simplified
                          Acquisition Procedures

                        OIG-02-A-10       May 3, 2002




                       AUDIT REPORT




All publicly available OIG reports (including this report) are accessible through
                               NRC’s website at:
                     http://www.nrc.gov/NRC/OIG/index.html
                                             May 3, 2002




MEMORANDUM TO:                William D. Travers
                              Executive Director for Operations



FROM:                         Stephen D. Dingbaum/RA/
                              Assistant Inspector General for Audits


SUBJECT:                      REVIEW OF NRC’S SIMPLIFIED ACQUISITION PROCEDURES
                              (OIG-02-A-10)


Attached is the Office of the Inspector General’s audit report titled, Review of NRC’s Simplified
Acquisition Procedures.

This report reflects the results of our review to determine whether NRC’s policies governing
simplified acquisitions are in accordance with applicable laws and regulations, and whether
management controls for purchase card use provide reasonable assurance to deter and
prevent loss through fraud, waste, or misuse. This audit focused on NRC headquarters
purchase card usage and oversight. Regional purchase card usage will be assessed
separately. The review determined that NRC’s simplified acquisition policies are in accordance
with applicable laws and regulations and the agency satisfied the Federal Acquisition
Regulation requirement that the purchase card be used as the preferred method for making
micro-purchases (which resulted in approximately $395,000 in cost avoidance). However,
NRC’s purchase card policies need to be incorporated into the agency’s formal policy system
and opportunities exist to strengthen management controls. Specifically, the purchase card
program would benefit from more comprehensive agency guidance, improvements to NRC
quality control reviews, and a strengthened separation clearance process.

At an exit conference held on April 17, 2002, NRC officials generally agreed with the report’s
findings and recommendations. While agency officials chose not to provide a formal, written
response for inclusion in the report, they did provide editorial suggestions, which have been
incorporated where appropriate.

If you have any questions, please contact Tony Lipuma at 415-5910 or me at 415-5915.

Attachment: As stated

cc:     John Craig, OEDO
R. McOsker, OCM/RAM
B. Torres, ACMUI
G. Hornberger, ACNW
G. Apostolakis, ACRS
J. Larkins, ACRS/ACNW
P. Bollwerk III, ASLBP
K. Cyr, OGC
J. Cordes, OCAA
S. Reiter, CIO
J. Funches, CFO
P. Rabideau, Deputy CFO
J. Dunn Lee, OIP
D. Rathbun, OCA
W. Beecher, OPA
A. Vietti-Cook, SECY
W. Kane, DEDR/OEDO
C. Paperiello, DEDMRS/OEDO
P. Norry, DEDM/OEDO
M. Springer, ADM
R. Borchardt, NRR
G. Caputo, OI
P. Bird, HR
I. Little, SBCR
M. Virgilio, NMSS
S. Collins, NRR
A. Thadani, RES
P. Lohaus, STP
F. Congel, OE
M. Federline, NMSS
R. Zimmerman, RES
J. Johnson, NRR
H. Miller, RI
L. Reyes, RII
J. Dyer, RIII
E. Merschoff, RIV
OPA-RI
OPA-RII
OPA-RIII
OPA-RIV
                                                          Review of NRC’s Simplified Acquisition Procedures


EXECUTIVE SUMMARY

        BACKGROUND

                Simplified acquisition procedures are the methods prescribed in Federal
                Acquisition Regulation Part 13 for making purchases of supplies or services that
                do not exceed $100,000, with certain exceptions. These procedures aim to
                reduce administrative costs, improve opportunities for small businesses, promote
                efficiency and economy in contracting, and avoid unnecessary burdens for
                agencies and contractors. Simplified acquisition methods include the
                Government-wide commercial purchase card,1 purchase orders, and blanket
                purchase agreements. The Chief Financial Officers Council goal for purchase
                card use is more than 90 percent of purchases under $2,500.

                United States General Accounting Office (GAO) audits of other agencies found
                that lack of training and insufficient management controls resulted in fraudulent,
                improper and abusive transactions using the purchase card. Accordingly, our
                audit focused on the United States Nuclear Regulatory Commission’s (NRC)
                use of the purchase card.

                As of January 2002, NRC had 121 purchase card holders and 52 approving
                officials. During FY 2001, NRC purchase card holders used their purchase
                cards to make 5,810 micro-purchases2 totaling approximately $2.4 million.

        PURPOSE

                The objectives of this audit were to determine whether: (1) NRC’s policies
                governing simplified acquisitions are in accordance with applicable laws,
                executive orders, and regulations; and (2) management controls for purchase
                card use provide reasonable assurance to deter and prevent loss through fraud,
                waste, or misuse. This audit focused on NRC headquarters purchase card
                usage and oversight. Regional purchase card usage will be assessed
                separately.




        1
            The Federal Acquisition Regulation defines a “Governmentwide commercial purchase card” as
“a purchase card, similar in nature to a commercial credit card, issued to authorized agency personnel to
use to acquire and to pay for supplies and services.”


        2
            The Federal Acquisition Regulation defines “micro-purchase” as “an acquisition of supplies or
services (except construction), the aggregate amount of which does not exceed $2,500, except that in the
case of construction, the limit is $2,000.”

                                                    i
                                                            Review of NRC’s Simplified Acquisition Procedures

        RESULTS IN BRIEF

                NRC’s simplified acquisition policies are in accordance with applicable laws,
                executive orders, and regulations such as the Federal Acquisition Regulation.
                The agency’s broad policies recognize the need for oversight and the proper
                authorization and execution of transactions.

                During FY 2001, NRC achieved the Chief Financial Officers Council’s goal, as
                NRC made 96.1 percent of its 6,047 micro-purchase transactions using
                purchase cards. Thus, NRC also satisfied the Federal Acquisition Regulation
                requirement that the purchase card be used as the preferred method for making
                micro-purchases, which resulted in approximately $395,000 in cost avoidance.

                While NRC’s simplified acquisition policies are in accordance with applicable
                laws and regulations, the agency’s purchase card policies are not incorporated
                into its formal policy system. As a result, the agency may not be able to hold
                employees legally accountable if they misuse purchase cards.

                Most management controls for micro-purchases are working as intended;
                however, opportunities exist to strengthen other relevant management controls.
                Office of the Inspector General compliance testing of 155 purchase card
                transactions from FY 2001 disclosed one recurring questionable transaction,3
                that was referred to agency officials for appropriate action. The Purchase Card
                Program would benefit from (1) more comprehensive agency guidance, (2)
                improvements to NRC quality control reviews, and (3) a strengthened separation
                clearance process. These conditions were not identified because NRC
                management officials believed that existing controls were sufficient. Enhancing
                existing controls will lessen agency vulnerabilities to fraud, waste, and misuse.

        RECOMMENDATIONS

                This report makes nine recommendations to the Executive Director for
                Operations. The nine recommendations address the need to incorporate
                purchase card policies into the agency’s formal policy system and improve
                management controls.




        3
           The recurring questionable transaction is a monthly charge that actually represents 11 of the 155
transactions sampled (2 transactions at $75 each and 9 transactions at $80 each).

                                                     ii
                                              Review of NRC’s Simplified Acquisition Procedures


ABBREVIATIONS AND ACRONYMS

    DCPM    Division of Contracts and Property Management

    FAR     Federal Acquisition Regulation

    GAO     United States General Accounting Office

    NRC     United States Nuclear Regulatory Commission

    OIG     Office of the Inspector General

    OMB     Office of Management and Budget




                                     iii
                      Review of NRC’s Simplified Acquisition Procedures




[Page intentionally left blank.]




               iv
                                                                     Review of NRC’s Simplified Acquisition Procedures


TABLE OF CONTENTS

    EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

    ABBREVIATIONS AND ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iii


    I.    BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

    II.   PURPOSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

    III. FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

              A. PURCHASE CARD POLICIES SHOULD BE INCORPORATED INTO
                  NRC’S FORMAL POLICY SYSTEM . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

              B. OPPORTUNITIES EXIST TO STRENGTHEN
                  MANAGEMENT CONTROLS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

    IV. CONSOLIDATED LIST OF RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . 9

    APPENDIX

    A.        SCOPE AND METHODOLOGY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11




                                                            v
                      Review of NRC’s Simplified Acquisition Procedures




[Page intentionally left blank.]




               vi
                                                           Review of NRC’s Simplified Acquisition Procedures


I. BACKGROUND

                 Simplified acquisition procedures are the methods prescribed in Federal
                 Acquisition Regulation (FAR) Part 13 for making purchases of supplies or
                 services that do not exceed $100,000, with certain exceptions. These
                 procedures aim to reduce administrative costs, improve opportunities for small
                 businesses, promote efficiency and economy in contracting, and avoid
                 unnecessary burdens for agencies and contractors. Simplified acquisition
                 methods include the government-wide commercial purchase card,4 purchase
                 orders, and blanket purchase agreements.

                 United States General Accounting Office (GAO) audits of other agencies found
                 that lack of training and insufficient management controls resulted in fraudulent,
                 improper and abusive transactions using the purchase card. Accordingly, our
                 audit focused on the United States Nuclear Regulatory Commission’s (NRC)
                 use of the purchase card.

                 FAR 13.201(b) explains that the purchase card is the preferred method to pay for
                 micro-purchases, which are defined as “an acquisition of supplies or services
                 (except construction), the aggregate amount of which does not exceed $2,500,
                 except that in the case of construction, the limit is $2,000.”

                 In addition, the Chief Financial Officers Council goal for purchase card use is
                 more than 90 percent of purchases under $2,500. The Office of Management
                 and Budget (OMB) and the Chief Financial Officers Council reported that the
                 number of micro-purchases made with a purchase card increased from under 4
                 million in 1995 to over 18 million in 1999.

                 As of January 2002, NRC had 121 purchase card holders and 52 approving
                 officials. During FY 2001, NRC purchase card holders made 5,810 micro-
                 purchase transactions totaling approximately $2.4 million. Throughout this
                 report, the terms “bankcard” and “purchase card” are used interchangeably.
                 “Purchase card” is the more currently used term.

                 NRC’s policies and guidance for purchase cards are included in: (1)
                 Management Directive 11.1, NRC Acquisition of Supplies and Services; (2)
                 NRC’s purchase card pamphlet, The Nuclear Regulatory Commission’s
                 Procedures for the Use of the U.S. Government BankCard, October 1998,5 and
                 (3) an agency instruction issued by the Division of Contracts and Property
                 Management (DCPM).6



        4
            The FAR defines a “Governmentwide commercial purchase card” as “a purchase card, similar
in nature to a commercial credit card, issued to authorized agency personnel to use to acquire and to pay
for supplies and services.”
        5
            This pamphlet serves as a 19 page guide for purchase card holders and approving officials.
        6
         DCPM Instruction 96-06 Revision 2, Simplified Acquisitions: Agency Procedures for Award of
Orders Under GSA Federal Supply Schedule Contracts,” July 30, 2001.

                                                    1
                                                Review of NRC’s Simplified Acquisition Procedures

          The Program Coordinator is responsible for management of the agency’s
          Purchase Card Program and serves as the purchase card holders’ point-of-
          contact for issues including: (1) the propriety of proposed purchases; (2)
          changes in name, address, or telephone number; and (3) changes in spending
          limits.


II. PURPOSE

          The objectives of this audit were to determine whether NRC’s (1) policies
          governing simplified acquisitions are in accordance with applicable laws,
          executive orders, and regulations; and (2) management controls for purchase
          card use provide reasonable assurance to deter and prevent loss through fraud,
          waste, or misuse. The audit focused on NRC headquarters purchase card
          usage and oversight. Regional purchase card usage will be assessed
          separately. Appendix A contains the audit’s detailed scope and methodology.



III. FINDINGS

          NRC’s simplified acquisition policies are in accordance with applicable laws,
          executive orders, and regulations such as the FAR. The agency’s broad policies
          recognize the need for oversight and the proper authorization and execution of
          transactions. The following chart, based on NRC provided data, shows that NRC
          made 96.1 percent of its 6,047 micro-purchase transactions during FY 2001
          using purchase cards. Thus, NRC satisfied the FAR requirement that the
          purchase card be used as the preferred method for making micro-purchases.

                     FY 2001 Micro-Purchase Transactions




                      5810
                 Purchase Card
                  Transactions                                    237
                     96.1%                                    Purchase
                                                               Order
                                                            Transactions
                                                                3.9%




                                         2
                                                           Review of NRC’s Simplified Acquisition Procedures

                The Procurement Executives Council7 determined that using a purchase card
                rather than a purchase order saved the Federal government $66 per transaction
                during FY 2000.8 For FY 2001, the Office of the Inspector General (OIG)
                calculated the savings per transaction to be $68.9 Thus, NRC’s 5,810 micro-
                purchases made by purchase card during FY 2001 resulted in savings of
                approximately $395,000.

                While NRC’s simplified acquisition policies are in accordance with applicable
                laws and regulations, the agency’s purchase card policies are not incorporated
                into its formal policy system. As a result, the agency may not be able to hold
                employees legally accountable if they misuse purchase cards.

                Most management controls for micro-purchases are working as intended;
                however, opportunities exist to strengthen other relevant management controls.
                OIG compliance testing of 155 purchase card transactions made during FY 2001
                disclosed one recurring questionable transaction,10 which was referred to DCPM
                officials for appropriate action.


        A. PURCHASE CARD POLICIES SHOULD BE INCORPORATED INTO NRC’s
           FORMAL POLICY SYSTEM

                NRC’s acquisition regulations are codified in the Code of Federal Regulations,
                Title 48, Federal Acquisition Regulations System. Subpart 2001.3 states that
                “Policy, procedures, and guidance of an internal nature will be promulgated
                through internal NRC issuances such as Management Directives or Division of
                Contracts and Property Management Instructions.” However, the agency’s
                management directives and DCPM instructions do not contain a reference to the
                pamphlet by title. As a result, violations of the purchase card requirements may
                not be legally enforceable.

                The detailed instructions for employees holding a purchase card and for
                approving officials are contained in The Nuclear Regulatory Commission’s
                Procedures for the Use of the U.S. Government BankCard. This pamphlet
                serves as a guide for purchase card holders and approving officials. However,
                the requirements of the pamphlet are neither included nor incorporated by
                reference in NRC’s management directives or DCPM instructions. To be legally


        7
          An interagency council comprised of procurement executives in the Executive Branch established
to provide a senior level forum for monitoring and improving the Federal Acquisition System.

        8
         The Procurement Executives Council’s Government-wide Acquisition Performance Measurement
Program, April 2000.
        9
           OIG escalated the FY 2000 savings per transaction figure of $66 by a 3 percent annual inflation
factor, used by the Procurement Executives Council, to compute a FY 2001 savings per transaction of $68.
        10
            The recurring questionable transaction is a monthly charge that represents 11 of the 155
transactions sampled (2 transactions at $75 each and 9 transactions at $80 each) .

                                                    3
                                                       Review of NRC’s Simplified Acquisition Procedures

               enforceable, NRC’s requirements for purchase card use and approval must be
               incorporated or referenced in the agency formal system for promulgating its
               policies.

               RECOMMENDATION

               OIG recommends that the Executive Director for Operations:

               1.      Incorporate the purchase card pamphlet into NRC’s management
                       directives or Division of Contracts and Property Management instructions.


        B. OPPORTUNITIES EXIST TO STRENGTHEN MANAGEMENT CONTROLS

               The Purchase Card Program would benefit from improvements to management
               controls. Controls, as defined by the OMB, are developed to ensure that
               programs achieve intended results and maintain their integrity. The Purchase
               Card Program would benefit from (1) more comprehensive agency guidance, (2)
               improvements to NRC quality control reviews, and (3) a strengthened separation
               clearance process. These conditions were not identified because DCPM
               management believed that existing controls were sufficient. Strengthening
               existing controls will lessen agency vulnerabilities to fraud, waste, or misuse.

               Guidance promulgated by both OMB and GAO provides criteria for effective
               management controls. OMB Circular No. A-123, Management Accountability
               and Control, revised June 21, 1995, encourages agency managers to
               continuously monitor and improve the effectiveness of management controls
               associated with their programs. The Circular states:

                       Management controls are the organization, policies, and
                       procedures used to reasonably ensure that (i) programs achieve
                       their intended results; (ii) resources are used consistent with
                       agency mission; (iii) programs and resources are protected from
                       waste, fraud, and mismanagement; (iv) laws and regulations are
                       followed; and (v) reliable and timely information is obtained,
                       maintained, reported, and used for decision making.

               Additionally, GAO’s internal control standards11 explain that internal controls are
               a key factor in helping program managers to accomplish agencies’ missions,
               achieve program results, and minimize operational problems. GAO’s internal
               control standards particularly relevant to this review address information and
               communications, monitoring, and appropriate documentation of transactions and
               internal control. GAO’s guidance states that “Internal control and all transactions
               and other significant events need to be clearly documented, and the
               documentation should be readily available for examination.”


        11
             Standards for Internal Control in the Federal Government, GAO/AIMD–00-21.3.1, November
1999.

                                                 4
                                         Review of NRC’s Simplified Acquisition Procedures

Agency Guidance Needs to be More Comprehensive

NRC’s pamphlet and Management Directive 11.1 lack policies and/or guidance in
the following key areas: (1) timely notification to the Assistant Inspector General
for Investigations regarding the fraudulent use, loss, or theft of a purchase card;
(2) need for purchase card holders and approving officials to receive periodic
refresher training; and (3) a requirement for the Program Coordinator to clearly
document approvals for exceptions to purchase card policy and have the
documentation readily available for examination. In addition, the NRC internal
website does not contain current purchase card guidance.

       Office of the Inspector General Notification

In accordance with the Inspector General Act, the Assistant Inspector General
for Investigations supervises the performance of investigative activities and
inquiries relating to NRC programs and operations. The OIG refers criminal
matters to the Department of Justice for prosecution and refers administrative
offenses to agency managers for action.

The pamphlet and other agency policy does not require that the Assistant
Inspector General for Investigations be informed of the fraudulent use, loss, or
theft of a purchase card. Such notification must occur before the Assistant
Inspector General for Investigations can initiate an investigation. Assistant
Inspector General for Investigations representatives emphasized a direct
correlation between the timeliness of notification and the likelihood of identifying
the wrongdoer.

       Refresher Training

The pamphlet explains that prospective purchase card holders and approving
officials are required to complete the agency’s training course, “NRC’s
Procedures for Use of the U.S. Government BankCard;” however, there is no
mention of refresher training. The Program Coordinator explained that in her 5
years as coordinator, DCPM provided only five one-half day refresher training
sessions during the period December 19, 2000 - January 24, 2001. To date,
NRC has not prescribed a frequency or time interval within which refresher
training is to be given.

Some of the purchase card holders/approving officials interviewed expressed the
desire for refresher training. Without periodic refresher training, purchase card
holders and approving officials may not properly perform the full scope of their
responsibilities.

       Documentation of Exception Approvals

While the pamphlet identifies and describes prohibited purchases, it also
explains that the prohibitions are not absolute. When special circumstances
warrant exception to the policy, purchase card holders are advised to obtain the


                                  5
                                       Review of NRC’s Simplified Acquisition Procedures

necessary approval prior to making the purchase. The Program Coordinator
receives and approves most exception requests verbally via the telephone. Such
approvals are not consistently documented, nor are they readily available for
examination, as required by GAO internal control standards.

OIG examined many transactions that initially appeared to be exceptions to the
guidance for purchase card use. Because the Program Coordinator often
approved exceptions verbally, written documentation to support such approvals
was generally not available.

       Internal Website Needs Updating

Purchase card guidance on the internal website is not current and consistent
with other agency guidance. For example, the pamphlet contains significant
responsibilities and guidance for purchase card holders and approving officials.
Under a heading that is identical to the pamphlet title, the agency’s internal
website also contained purchase card responsibilities and guidance. A
comparison of the material in the pamphlet with the electronic version found on
the internal website revealed that the following responsibilities and guidance are
included in the pamphlet but were not found on the website as of November 29,
2001: (1) “How do I handle Fiscal Year end actions?” (2) “Thirty-Day Approving
Official Limit,” (3) “Approving Official review of the statement of account,” and
(4) “REBATES.”

Upon notification of these and other differences, DCPM representatives promptly
removed the electronic guidance from the website and explained that the
pamphlet contains the current official guidance. The internal website currently
states, “The Bankcard Procedures are in the process of being updated. We will
notify you when the new Bankcard procedures are complete and reposted.”

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

2.     Revise the purchase card pamphlet to require timely notification to the
       Assistant Inspector General for Investigations regarding the fraudulent
       use, loss, or theft of a purchase card.

3.     Revise the purchase card pamphlet to require periodic refresher training
       every two years.

4.     Revise the purchase card pamphlet to require the Program Coordinator
       to document approved exceptions to purchase card use.

5.     Eliminate or update the section of the internal website concerning
       purchase cards.




                                 6
                                                          Review of NRC’s Simplified Acquisition Procedures

                Agency Quality Control Reviews Need Improvement

                DCPM performs quality control reviews of the purchase card program to monitor
                the appropriateness of card usage. These reviews could be strengthened by
                enhancing the scope and frequency of these reviews and by clarifying the results
                reported to NRC management.

                        Review Scope and Frequency

                The Program Coordinator uses a limited checklist to facilitate her annual review
                of headquarters purchase card transactions. The checklist aids in testing
                compliance with various purchase card requirements. It also promotes
                uniformity and consistency in testing the headquarters purchase card
                transactions that are selected for review. However, the checklist does not
                include some key attributes listed in the FAR. For example, the checklist does
                not include: (1) does the price appear fair and reasonable? (2) is the purchase
                authorized by law or regulation? and (3) is the purchase improperly split into
                more than one purchase (commonly known as a split purchase)?12 Expanding
                the checklist to include these steps would result in a more comprehensive
                analysis. Absent these critical compliance tests, NRC managers have
                inadequate information to evaluate program performance.

                DCPM’s oversight of regional purchase card transactions is inconsistent with its
                headquarters oversight. Regional reviews do not use the same evaluation
                criteria used at headquarters and the reviews are not conducted with the same
                frequency. For example, the Program Coordinator performs compliance tests of
                headquarters purchase card transactions annually. In contrast, the last review of
                regional purchase card transactions was completed in 1999, using different
                criteria from that used at headquarters. Furthermore, DCPM has not established
                a frequency or time interval for regional reviews.

                        Reporting Results

                The memoranda used to report the annual results of the FY 2000 purchase card
                reviews at headquarters are inaccurate and can be misleading. Each
                memorandum sent to headquarters Office Directors incorrectly reported that all
                purchase card transactions were reviewed. However, the Program Coordinator
                reviewed only three months of the annual purchase card transactions.
                Furthermore, the number of issues identified by the Program Coordinator were
                not always reported. For example, one memorandum states in part, “We also
                found several deficiencies with respect to one cardholder’s BankCard log
                sheets....” As a result of this example, which does not report the precise
                number of exceptions, agency managers are unable to determine the error rate
                (an important aspect of program performance.)



        12
          Split purchases are intended to avoid any requirement that applies to purchases that exceed the
micro-purchase threshold of $2,500.

                                                   7
                                        Review of NRC’s Simplified Acquisition Procedures

Office Directors must have reliable and timely reports that communicate the
universe, sample, errors, and error rate in order to obtain a true picture of their
offices’ purchase card performance. The reporting of limited and/or inaccurate
information to management can lead to incorrect conclusions, which in turn, can
lead to improper decision making.

RECOMMENDATIONS

OIG recommends that the Executive Director for Operations:

6.     Enhance the checklist for quality control reviews to include the following
       key Federal Acquisition Regulation requirements: pricing, authorization,
       and whether a transaction is a split purchase.

7.     Strengthen reports on quality control reviews of purchase card
       transactions by including information on the universe, sample, errors,
       and error rate to assist in program evaluation and decision making.

8.     Require annual review of purchase card transactions in the regions and
       in headquarters using the same or similar evaluation criteria.

Separation Clearance Process Requires Revision

Current procedures do not ensure that a purchase card holder returns the
purchase card prior to separation from NRC. The pamphlet merely states that if
a purchase card holder leaves the agency, the individual must notify the Director
of the Office of Administration in writing (with a copy to his/her Office Director),
as well as return the purchase card cut in half. This control relies solely on an
individual rather than the agency’s system or process to ensure a purchase card
is returned.

DCPM officials agreed that NRC Form 270, “Separation Clearance,” should be
enhanced to require that the Program Coordinator serve as a clearing official to
ensure that employees return their purchase cards prior to separation. Such
action will reduce NRC’s vulnerability to loss, misuse, or theft that could result
from a purchase card holder’s failure to return a purchase card prior to leaving
the agency.

RECOMMENDATION

OIG recommends that the Executive Director for Operations:

9.     Revise NRC Form 270, “Separation Clearance,” to require that the
       Program Coordinator serve as a clearing official to ensure that
       employees return their purchase cards prior to separating from the
       agency.




                                  8
                                               Review of NRC’s Simplified Acquisition Procedures

        Summary

        To hold employees legally accountable, the agency purchase card policies
        should be incorporated into NRC’s formal policy system, which includes
        management directives and DCPM instructions. Furthermore, NRC’s purchase
        card program would benefit from improved management controls that will better
        ensure the program’s integrity. Management controls require strengthening in
        three areas: (1) agency guidance, (2) agency quality control reviews, and (3) the
        separation clearance process. The effort needed to improve these controls is
        minimal and the improved controls should lessen NRC’s vulnerability to fraud,
        waste, or misuse of purchase cards.


IV. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.     Incorporate the purchase card pamphlet into NRC’s management
               directives or Division of Contracts and Property Management instructions.

        2.     Revise the purchase card pamphlet to require timely notification to the
               Assistant Inspector General for Investigations regarding the fraudulent
               use, loss, or theft of a purchase card.

        3.     Revise the purchase card pamphlet to require periodic refresher training
               every two years;

        4.     Revise the purchase card pamphlet to require the Program Coordinator
               to document approved exceptions to purchase card use.

        5.     Eliminate or update the section of the internal website concerning
               purchase cards.

        6.     Enhance the checklist for quality control reviews to include the following
               key Federal Acquisition Regulation requirements: pricing, authorization,
               and whether a transaction is a split purchase.

        7.     Strengthen reports on quality control reviews of purchase card
               transactions by including information on the universe, sample, errors,
               and error rate to assist in program evaluation and decision making.

        8.     Require annual review of purchase card transactions in the regions and
               in headquarters using the same or similar evaluation criteria.

        9.     Revise NRC Form 270, “Separation Clearance,” to require that the
               Program Coordinator serve as a clearing official to ensure that
               employees return their purchase cards prior to separating from the
               agency.


                                         9
                      Review of NRC’s Simplified Acquisition Procedures




[Page intentionally left blank.]




              10
                                              Review of NRC’s Simplified Acquisition Procedures
                                                                                     Appendix A


SCOPE AND METHODOLOGY

       To accomplish the audit objectives, OIG reviewed and analyzed pertinent laws,
       executive orders, regulations, and prior GAO reports. In addition, OIG identified,
       analyzed and compared NRC’s guidance with the aforementioned criteria. OIG
       conducted interviews with selected NRC officials to gain an understanding of the
       agency’s simplified acquisition process, with an emphasis on various aspects of
       the Purchase Card Program. Interviews were conducted to determine current
       issues, problems, known deficiencies and to assess management controls. OIG
       interviewed personnel in the Offices of Administration, Chief Financial Officer,
       Human Resources, Chief Information Officer, General Counsel, Nuclear Reactor
       Regulation, Investigations, International Programs, Nuclear Regulatory
       Research, Nuclear Material Safety and Safeguards, and Small Business and
       Civil Rights. In addition, OIG met with personnel in Incident Response
       Operations, the Advisory Committee on Reactor Safeguards, and the Atomic
       Safety and Licensing Board Panel. OIG also interviewed personnel from all four
       Regions.

       OIG conducted various compliance tests of headquarters FY 2001 purchase
       card transactions. Purchase card transactions were selected for testing based
       on (1) a statistical sample and (2) a judgmental sample based on possible
       prohibited transactions.

       OIG reviewed and analyzed management controls related to the audit objectives.
       Throughout the review, auditors were aware of the possibility or existence of
       fraud, waste, or misuse in the program. OIG conducted this audit in accordance
       with Generally Accepted Government Auditing Standards from November 2001
       through January 2002.

       The major contributors to this report were Anthony Lipuma, Team Leader;
       Steven Zane, Audit Manager; and Michael Steinberg, Senior Auditor.




                                       11
